No. 19-

 

IN THE

Supreme Court of the United States

DAVID ZACHERY MORGAN,

Petitioner,
v.

STATE OF WASHINGTON,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Washington

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,959 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 15, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
